                     Closeout of M90070029

 his case :was                    ,                  a program
officer in the
a proposal csub
the ~eparthent
University.
several sent
published paper. These sentences were part of the statement of
the problem to be studied.
The proposer noted that he had referred to the paper in his
proposal and did not intend to plagiarize.       However, he had
copied passages from the paper in several places without
indicating that they were taken verbatim or nearly verbatim from
the published text.     After some correspondence, it was made
clear to him that such copying should be marked by more than the
source reference he had made.    He submitted a revised proposal
that contained the proper attributions to the paper.
The amount of material copied is small, and it amounts to quite a
small portion of the proposal.    It would not be appropriate to
initiate a more formal procedure with a view to a possible
sanction.   The proposer now has a clearer idea of standard
practice in the use of citations, and the case can now be closed.
The complainant and the program officer should be notified by
phone.




January 25, 1991
